NO.
RELATED CASES NOs: 20-6136 and 18-8903

3fn t(je

Supreme Court of tlje ®ntteb States;
OWEN W. BARNABY — PETITIONER
VS.
BRET WITKOWSKI, et al., — RESPONDENT(S)

PROOF OF SERVICE

I, Owen W. Bamaby, do declare that on the 1 day of June , 2021, a duplicate
original, as required by Supreme Court Rule 29,1 have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PA UPERIS and PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding via their
counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, for delivery within
3 calendar days. The names and addresses of those served are as follows:
Defendants’ Attorney: Jeffrey R. Holmstrom, Holmstrom Law Office, PLC. 830
Pleasant Street, Suite 100, St. Joseph, Michigan 49085.1 declare under penalty of
perjury that the foregoing is true and correct.
gspectfully Submitted,
Dated: June 1,2021

f

Qi/

L

Owen Bamabyrfn Pro Se

received
JUN 1 0 2021

IN THE
SUPREME COURT OF THE UNITED STATES

OWEN W. BARNABY —

PETITIONER
VS.

COUNTY TREASURER, BRET WITKOWSKI
And BERRIEN COUNTY GOVERNMENT-

Owen W. Bamaby
P.O. Box 1926
Kennesaw, GA 30156
(678)382-4183

RESPONDENTS

Jeffery R. Holmstrom (P29405)
Attorney for Defendants
Holmstrom Law Office PLC
830 Pleasant Street, Suite 100
St. Joseph, Michigan 49085
(269) 983-0755

ii

